WR-B-00-06




              AUDIT
             REPORT


                               HANFORD SITE RADIATION AND
                               HAZARDOUS WASTE TRAINING




                                      SEPTEMBER 2000




  U.S. DEPARTMENT OF ENERGY
 OFFICE OF INSPECTOR GENERAL
   OFFICE OF AUDIT SERVICES
                                            September 29, 2000


MEMORANDUM FOR THE MANAGER, RICHLAND OPERATIONS OFFICE AND MANAGER,
OFFICE OF RIVER PROTECTION

FROM:                 Lawrence R. Ackerly, Regional Manager (Signed)
                      Western Regional Audit Office
                      Office of Inspector General

SUBJECT:              INFORMATION: Audit Report on "Hanford Site Radiation and Hazardous Waste
                      Training"

BACKGROUND

The Hanford Site (Site) has numerous radiological and hazardous waste areas. To ensure worker safety and
health, the Richland Operations Office (Richland) and the Office of River Protection (ORP) require
radiation and/or hazardous waste training for employees who enter contaminated areas. Site records
showed that many employees received radiation training even though there was no record of their entry into
contaminated areas. This indicated that employees may have received training that was not required. The
objective of the audit was to determine if employees received training in radiation and/or hazardous waste
that was not required.

RESULTS OF AUDIT

For the audit period, 1,630 employees received training in radiation and/or hazardous waste that was not
required. For example, employees other than those involved in fire, rescue, and security functions received
radiation training even though they never entered radiological areas, never entered unescorted, and/or never
intended to enter such areas unescorted. The training occurred because line managers and employees
misunderstood the training requirements even though senior officials had identified the problem prior to the
start of the audit. The non-required training cost about $1.2 million annually.

In his March 1999 memo on training, the Secretary of Energy stated that the Department
of Energy (DOE) was challenged with making the best use of limited resources. Richland and ORP have
the opportunity to eliminate radiation and hazardous waste training that is not required. By doing so, they
can reduce training costs by about $6 million over the next five years.

We recommended that Richland and ORP ensure that all DOE and contractor Site managers and employees
understand the training requirements for radiation and hazardous waste training and that employees be
trained only when required.

MANAGEMENT REACTION

Management generally concurred with the overall conclusion and recommendation.
HANFORD SITE RADIATION AND HAZARDOUS WASTE TRAINING

TABLE OF
CONTENTS


                Overview

                Introduction and Objective ............................................... 1


                Conclusions and Observations ........................................ 1


                Radiation and Hazardous Waste Training


                Details of Finding ............................................................ 3


                Recommendation and Comments ................................... 5


                Appendices


                Scope and Methodology.................................................. 8


                Statistical Sampling Objectives, Technique,
                and Evaluation .............................................................. 10


                Related Office of Inspector General and General
                Accounting Office Reports............................................. 12
Overview
INTRODUCTION      The Hanford Site (Site) contains numerous radiological areas and
AND OBJECTIVE     hazardous waste areas. To ensure worker safety and health, the
                  Richland Operations Office (Richland) and the Office of River
                  Protection (ORP) require everyone to receive General Employee
                  Radiological Training and certain employees to receive additional
                  training in radiation and/or hazardous waste. Site records showed that
                  several hundred employees received this additional radiation training
                  even though there was no record of their entry into a contaminated area
                  during a two-year period. This indicated that employees may have
                  received training that was not required. Therefore, the objective of
                  the audit was to determine if employees received training in radiation
                  and/or hazardous waste that was not required.

CONCLUSIONS AND   For the two-year audit period, 1,630 Site employees received additional
OBSERVATIONS      training in radiation and/or hazardous waste that was not required. This
                  occurred because managers and employees misunderstood training
                  requirements. For example, radiation training was required for
                  employees who planned to enter radiological areas unescorted.
                  Managers, however, approved radiation training for employees who
                  never intended to enter such areas or if they were required to enter such
                  an area, they would do so escorted. Non-required radiation and
                  hazardous waste training cost the Department of Energy (DOE) about
                  $1.2 million annually.

                  In his March 1999 memorandum on effectively using training
                  resources, the Secretary of Energy cited past criticism by the General
                  Accounting Office (GAO) and the Congress of DOE spending levels.
                  The Secretary stated that DOE had reduced its expenditures for training
                  and development by nearly one-third from Fiscal Year (FY) 1995 to
                  FY 1997. He stated that DOE was now challenged with making the
                  best use of limited resources and directed that funding of non-required
                  training be eliminated. Richland began a self-assessment of Site
                  radiation zone entry in March 1999 and tentative corrective actions
                  were begun at that time. However, these actions did not result in
                  reducing radiation and/or hazardous waste training.

                  Richland and ORP have the opportunity to eliminate training in
                  radiation and hazardous waste that is not required. By doing so, they
                  can reduce expenditures for radiation training and hazardous waste
                  training by about $6 million over five years.




Page 1                                               Introduction and Objective/
                                                     Conclusions and Observations
         In our opinion, the matters discussed in this report represent internal
         control weaknesses that Richland and ORP should consider when
         preparing the yearend assurance memorandum on internal controls.




                                           _______(Signed)________
                                           Office of Inspector General




Page 2                                       Conclusions and Observations
Radiation And Hazardous Waste Training
Training Not Required   Although all employees at the Site receive General Employee
                        Radiological Training, some employees are required to have additional
                        training in radiation and/or hazardous waste. This additional training is
                        more extensive and includes procedures that if not frequently used may
                        be overlooked. The audit revealed that 1,630 Site employees, excluding
                        those involved in fire, rescue, and security functions, received training
                        in radiation and/or hazardous waste that was not required. The reason
                        that it was not required is that such employees entered radiological and/
                        or hazardous waste areas infrequently, if at all. If and when such
                        employees visited radiological areas, they were escorted.

                                                  Radiation Training

                        Employees received radiation training even though they never entered
                        radiological areas, never entered unescorted, and/or never intended to
                        enter such areas unescorted. For example,

                           • A manager for a non-technical program had never entered a
                             radiological area and had no intention of entering one in the
                             future.

                           • A technical procedure writer had one entry during the audit
                             period. The employee was escorted during this entry and it was
                             the individual's stated intent never to enter a radiological area
                             unescorted.

                           • A manager had eight recorded entries into radiological areas
                             during the audit period and was escorted each time. This
                             manager entered radiological areas for observation and felt that
                             there should be less training required in such cases because, "if
                             we are observing, we clearly will be escorted by the real
                             workers," such as operators and health physics technicians.

                           • A laboratory instrument technician had one entry into a
                             radiological area during the audit period. This technician stated
                             that he/she was always escorted and it was unlikely that there
                             would be a need to enter without an escort in the future. This
                             individual stated a preference for escorted entry because the
                             radiation training was used infrequently and procedures were so
                             complicated that there was no way to remember it all unless it
                             was a daily routine.




Page 3                                                                    Details of Finding
                       Based on a statistical evaluation of 4,612 employees who received
                       radiation training during the audit period, an estimated 850 (18 percent)
                       received radiation training that was not required (see Appendix 2 for
                       sampling methodology and results).

                                              Hazardous Waste Training

                       Likewise, employees received hazardous waste training even though
                       they never entered hazardous waste areas. For example,

                          • An electrician had been in his/her position for ten years and had
                            not entered a hazardous waste site. It was this individual's intent
                            never to enter such a site.

                          • An environmental scientist had never entered a hazardous waste
                            site but received training on the assumption that future work
                            would be in a waste site facility scheduled to be built in three
                            years.

                          • A first-line supervisor did not enter hazardous waste sites and
                            his/her subordinates did not enter such sites.

                       Based on a statistical evaluation of 3,768 employees who received
                       hazardous waste training during the audit period, approximately 780
                       (21 percent) received training that was not required (see Appendix 2 for
                       sampling methodology and results).

Challenge Is To Make   Training employees when it was not required was inconsistent with the
Best Use Of Limited    Secretary's direction that such training be eliminated. In his March
Training Resources     1999 memorandum, the Secretary stated that DOE was challenged with
                       making the best use of limited training resources. He directed the
                       elimination of training that was not required by law or DOE directive,
                       did not address a mission-related objective, or did not contribute to
                       maintaining a highly skilled, versatile, and diverse workforce.

                       The Hanford Site Radiological Control Manual and the Project Hanford
                       Procedures, Radiological Worker Training, require radiation training
                       for unescorted entry into radiological areas ranging from buffer areas to
                       radiation areas. Some areas, such as airborne contaminate areas,
                       require training for any entry. This training prepares the employee for
                       potential contact with radioactive material. It teaches specialized skills




Page 4                                                                    Details of Finding
                        such as frisking for personnel contamination and verifying instrument
                        responses. The training was not required, however, for escorted entry
                        into most radiological areas.

                        Hazardous waste training was required by the Occupational Safety and
                        Health Administration and covered under Project Hanford Procedures,
                        Training Requirements and Instructions, for entry into sites containing
                        harmful wastes but not containing radioactive material. The training
                        was required whether entry to a site was escorted or unescorted. In
                        addition, the training was required for anyone who supervised
                        employees who entered hazardous waste sites. Thus, the training was
                        not required for employees who did not enter hazardous waste areas or
                        for their managers.

Training Requirements   Generally, non-required training was provided because managers and
Misunderstood           employees misunderstood the training requirements. For example,
                        these requirements stipulated that training was necessary only for
                        unescorted entry into radiological areas but managers stated that they
                        approved training because they thought it was needed for any entry.
                        Similarly, hazardous waste training was sometimes approved because
                        the manager mistakenly thought that this training was a general
                        requirement applicable to anyone who worked at the Site. Some
                        employees who received the non-required training had the same
                        misunderstanding as their managers.

                        Managers also stated that they approved training that was not required
                        because the employee might have a future need for it. Training for
                        unidentifiable future needs was unnecessary, however, because two
                        training departments continuously provided the training at the Site.
                        Thus, employees could receive training at the time it was needed.

Better Use Of Funds     The non-required training identified in this report cost about $1.2
                        million annually, an amount comprised of about $610,000 in payroll
                        costs for the nonproductive time the employees spent in training and
                        about $550,000 in tuition and other costs. By eliminating radiation and
                        hazardous waste training that are not required, Richland and ORP have
                        the opportunity to better use these funds.

RECOMMENDATION          We recommend that the Managers of Richland and ORP ensure that all
                        DOE and contractor Site managers and employees understand the
                        requirements for radiation and hazardous waste training and that
                        employees be trained only when required.




Page 5                                                   Recommendation and Comments
MANAGEMENT   Management's June 27, 2000, response to the Draft Report generally
REACTION     concurred with the overall conclusion and recommendation. The
             Richland Office of Training Services and Asset Transition has taken the
             lead to ensure that all Site contractors reexamine their records to
             determine the necessity of refresher training courses for those
             individuals who do not enter, or infrequently enter, radiation zones.
             Management will also be reeducated regarding site training
             requirements and how they are to be applied. The following corrective
             actions are either in progress or are planned to be complete by
             September 30, 2001:

                1. Management, using access control entry data generated in
                   March 1999, April 2000, and May 2000, is reviewing how many
                   radiological zone entries were made in the last two years for
                   each person trained in Radiation Worker I and II.

                2. An annual Business Management Oversight Process
                   performance measure is planned for FY 2001 requiring Fluor
                   Hanford, Inc., to analyze personnel training requirements to
                   reduce unnecessary training. Richland also intends to ensure
                   that Pacific Northwest National Laboratory and Bechtel
                   Hanford, Inc., (Bechtel) analyze their personnel training
                   requirements in this area.

                3. Discussions will be held with ORP to ensure that it is provided
                   assistance in analyzing the training requirements for its
                   contractor.

                4. Access entry information was distributed to Richland and ORP
                   Division Directors with the reminder to ensure that further
                   consideration be given to determining which employees need
                   the training. Additional radiological zone entry data will be
                   distributed to both offices as it becomes available.

                5. Hazardous Waste Operations training will be looked at
                   separately, and clarification will be given to all Site employees
                   detailing when this training is required.

             Management took exception to not being given credit for identifying
             the problem and taking action in March 1999 to reduce the amount of
             training by contractor employees. Richland training personnel had
             proposed to correct the condition through the use of performance
             expectations. Further, Richland criticized the Draft Report for not



Page 6                                      Recommendation and Comments
                   associating a cost with the use of escorts. In addition, Richland said the
                   Draft did not consider the Occupational Safety and Health Act (OSHA)
                   requirements. Finally, Richland said that four entries per month (96
                   over two years) should not be considered infrequent.

AUDITOR COMMENTS   Management comments and plans of action are responsive to our
                   recommendation. With respect to its March 1999 actions, Richland was
                   aware that unneeded radioactive and hazardous training may be
                   occurring. However, its proposed corrective actions were not included
                   in the contractor's performance plans and Richland had no other
                   corrective actions planned to reduce radiation and/or hazardous waste
                   training. Further, the report did not consider the costs of escorts
                   because the Office of Inspector General (OIG) did not second-guess an
                   employee's decision to use an escort. In addition, the OIG did consider
                   OSHA requirements; training associated with those requirements was
                   not questioned. Finally, the OIG arbitrarily decided to use four or
                   fewer entries per month as a selection criteria. Employees who chose to
                   enter unescorted were excluded from the sample.




Page 7                                             Recommendation and Comments
Appendix 1
SCOPE         We performed the audit from June 22, 1999 through May 31, 2000, at
              Richland, Washington, and the Site. The scope included DOE and
              contractor Site employees and training offices at Fluor Hanford, Inc.,
              the managing and integrating contractor for the Project Hanford
              Management Contract; Bechtel, the environmental restoration
              contractor; Battelle, the management and operating contractor for the
              Pacific Northwest National Laboratory; and Richland. In performing
              the audit, we reviewed records of employees who received radiation
              training (that is, Radiological Worker I and/or Radiological Worker II
              training) and/or hazardous waste training (that is, Hazardous Waste
              Operations and Emergency Response and/or Hazardous Waste
              Refresher training) during the audit periods shown below in
              Methodology. General Employee Radiological Training was excluded
              from the scope of the audit because it was required for all Site
              employees. We limited the universe for radiation training to employees
              who had 96 or less recorded entries into radiological areas during the
              audit period. This was based on the assumption that infrequent entry
              into radiological areas (that is, four or fewer recorded entries per
              month) did not provide sufficient familiarity with radiological area
              procedures for employees to enter unescorted.

METHODOLOGY   To accomplish the audit objective, we:

                 • randomly selected employees who received radiation training
                   and had 96 or less recorded entries into radiological areas from
                   October 2, 1997 through October 14, 1999 (see Appendix 2);

                 •   randomly selected employees who received hazardous waste
                     training from August 4, 1998 through July 29, 1999 (see
                     Appendix 2);

                 • reviewed training budgets and expenditures;

                 • evaluated employee training plans, needs analyses, and facility
                   access databases;

                 • electronically mailed training/job requirement questionnaires to
                   selected employees and evaluated responses;

                 • conducted interviews with Richland officials, contractor
                   management, and employees;




Page 8                                                 Scope and Methodology
            • visited employee work sites, facilities and offices, radiological
              and hazardous waste sites; and,

            • reviewed contract provisions for Government Performance and
              Results Act of 1993 performance measures related to the audit
              objective.

         The audit was performed in accordance with generally accepted
         government auditing standards for performance audits and included
         tests of internal controls and compliance with laws and regulations to
         the extent necessary to satisfy the audit objective. Internal controls
         reviewed included DOE and contractor policies and procedures and
         Federal regulations related to management and control of radiation and
         hazardous waste training. Because our review was limited, it would not
         necessarily have disclosed all internal control deficiencies that may
         have existed at the time of our audit. We assessed the reliability of
         computer generated data and found it to be reliable for the purposes of
         this audit. Finally, we reviewed Richland's, ORP's, and the major Site
         contractors' performance goals. Training and safety performance goals
         existed; however, the goals were not relevant to the audit objective.

         We discussed the finding in this report with the Director, Analysis and
         Evaluation Division on July 18, 2000.




Page 9                                             Scope and Methodology
Appendix 2
          STATISTICAL SAMPLING OBJECTIVES, TECHNIQUE, AND EVALUATION


Objectives

The sampling objectives were to estimate the number of Site employees who:

   •   received non-required radiation training from October 2, 1997 through October 14, 1999; or,

   •   received non-required hazardous waste training from August 4, 1998 through July 29, 1999.


Technique

We used the U.S. Army Audit Agency statistical sampling software for unrestricted attributes sampling to
determine sample sizes and generate random number listings. The sampling universes, sample sizes, and
sampling units were:

   •   Radiation Training. The universe consisted of 4,612 employees who received such training from
       October 2, 1997 through October 14, 1999, and entered radiological areas 96 times or less during
       the same time period. The sample size was 38. The sampling units were employee names that
       appeared in the Access Control Entry System.

   •   Hazardous Waste Training. The universe consisted of 3,768 employees who received hazardous
       waste training from August 4, 1998 through July 29, 1999. The sample size was 29. The
       sampling units were employee names that appeared in the Access Control Entry System.

The sample plans' confidence levels were 95 percent with an expected error rate of 11 percent for
radiation training and 12 percent for hazardous waste training. The attribute tested was whether an
employee received non-required training. A sampling error was an employee who received non-required
training. We considered radiation training to be non-required if the employee never entered radiological
areas, never entered unescorted, and/or never intended to enter such areas unescorted. We considered
hazardous waste training to be non-required if the employee never entered hazardous waste areas and/or
did not supervise employees who worked in such areas. Employees involved in fire, rescue, and security
functions were excluded.


Evaluation

Of the 38 sample employees who received radiation training, 7 received non-required training.
Therefore, the frequency of error lies between 283 (6 percent) and 1,415 (31 percent) of the universe
at a 95 percent confidence level. For purposes of this report, we used the midpoint of 850 employees
(18 percent) as the estimate of the number of employees who received radiation training that was not
required.


Page 10                                                             Statistical Sampling Objectives,
                                                                    Technique, and Evaluation
Of the 29 employees who received hazardous waste training, 6 received non-required training.
Therefore, the frequency of error lies between 226 (6 percent) and 1,332 (35 percent) of the universe at a
95 percent confidence level. We used the midpoint of 780 employees (21 percent) as the estimate of the
number of employees who received non-required hazardous waste training.




Page 11                                                              Statistical Sampling Objectives,
                                                                     Technique, and Evaluation
Appendix 3
                        RELATED OFFICE OF INSPECTOR GENERAL
                       AND GENERAL ACCOUNTING OFFICE REPORTS


•   Environmental Training at the Department of Energy, DOE/IG-294, December 1990

    Individuals were involved in hazardous waste operations at DOE facilities without receiving the
    required environmental training. Contractors at DOE facilities did not have adequate systems to
    identify employees requiring training, ensure that the training was received, and effectively document
    compliance.

•   Actions Necessary to Improve DOE's Training Program, GAO/RCED-99-56, February 1999

    Opportunities to reduce the costs associated with DOE's training program were identified by GAO.
    GAO noted that: (1) DOE employees had generally not completed individual development plans, and
    DOE offices had generally not prepared annual training plans; and (2) DOE could reduce its training
    costs by eliminating certain non-mandatory training.




Page 12                                                     Related Office of Inspector General and
                                                            General Accounting Office Reports
                                                                      Report No.: WR-B-00-06


                              CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of its
products. We wish to make our reports as responsive as possible to our customers'
requirements, and, therefore, ask that you consider sharing your thoughts with us. On the back
of this form, you may suggest improvements to enhance the effectiveness of future reports.
Please include answers to the following questions if they are applicable to you:

1. What additional background information about the selection, scheduling, scope, or
   procedures of the audit would have been helpful to the reader in understanding this
   report?

2. What additional information related to findings and recommendations could have been
   included in this report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report's overall
   message more clear to the reader?

4. What additional actions could the Office of Inspector General have taken on the issues
   discussed in this report which would have been helpful?

Please include your name and telephone number so that we may contact you should we have
any questions about your comments.

Name____________________________________Date________________________________

Telephone________________________________Organization__________________________

When you have completed this form, you may fax it to the Office of Inspector General at
(202) 586-0948, or you may mail it to:

               Office of Inspector General (IG-1)
               U.S. Department of Energy
               Washington, D.C. 20585
               ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact Wilma Slaughter at (202) 586-1924.
The Office of Inspector General wants to make the distribution of its reports as customer friendly and cost
  effective as possible. Therefore, this report will be available electronically through the Internet at the
                                             following address:


                   U.S. Department of Energy Office of Inspector General Home Page
                                        http://www.ig.doe.gov


       Your comments would be appreciated and can be provided on the Customer Response Form
                                      attached to the report.
